Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 A COMPARISON OF MEDICAID
FEDERAL UPPER LIMIT AMOUNTS
   TO ACQUISITION COSTS,
MEDICARE PAYMENT AMOUNTS,
     AND RETAIL PRICES




                    Daniel R. Levinson
                     Inspector General

                      August 2009
                     OEI-03-08-00490
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
   E X E C U T I V E                             S U M M A R Y


                  OBJECTIVES
                  1. To determine how Federal upper limit (FUL) amounts calculated
                     under the current method compare to (a) pharmacy acquisition costs,
                     (b) Medicare Part D payment amounts, and (c) retail prices under
                     discount generic programs.

                  2. To estimate the financial impact on the Medicaid program of
                     continuing to calculate FUL amounts using the current method.

                  3. To determine how FUL amounts calculated under the method
                     required by the Deficit Reduction Act of 2005 (DRA) compare to the
                     pricing points under review.


                  BACKGROUND
                  Federal regulations require, with certain exceptions, that each State
                  Medicaid agency’s reimbursement for a covered outpatient drug not
                  exceed (in the aggregate) the lower of the estimated acquisition cost
                  plus a reasonable dispensing fee or the provider’s usual and customary
                  charge to the public for the drugs. For certain drugs, States also use the
                  FUL program or State maximum allowable cost programs in setting
                  reimbursement.

                  The FUL program was established to help ensure that Medicaid takes
                  advantage of lower market prices for multiple-source drugs. However,
                  previous Office of Inspector General (OIG) work consistently found that
                  the published prices used to set Medicaid FUL amounts often greatly
                  exceeded prices in the marketplace. Based in part on this work, the
                  DRA required that, beginning January 1, 2007, FULs be based on
                  250 percent of the lowest average manufacturer price (AMP) rather
                  than 150 percent of the lowest price published in national compendia.

                  In connection with a lawsuit filed by two trade associations representing
                  retail pharmacies, a Federal judge issued a preliminary injunction
                  preventing the Centers for Medicare & Medicaid Services (CMS) from
                  moving forward with AMP-based reimbursement under Medicaid. In
                  addition, the Medicare Improvements for Patients and Providers Act of
                  2008 statutorily delayed the implementation of the new FUL
                  methodology until October 2009. As a result, CMS is still basing FULs
                  on the pre-DRA method as of August 2009.



OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   i
E X E C U T I V E               S U M M A R Y


                   We compared FUL amounts calculated under the current pre-DRA
                   method and the proposed AMP-based method to three pricing points:
                   (1) estimated fourth-quarter 2007 pharmacy acquisition costs for the
                   50 FUL drugs with the highest total Medicaid expenditures in 2007,
                   (2) average Part D pharmacy reimbursement amounts for all FUL drugs
                   in the fourth quarter of 2007, and (3) retail pricing for any FUL drugs
                   included in selected companies’ discount generic programs. We
                   estimated pharmacy acquisition costs based on information obtained
                   from wholesale distributors of prescription drugs. To estimate the
                   financial impact of continuing to base FUL amounts on the current
                   method, we compared actual Medicaid expenditures for the FUL drugs
                   under review to the amount Medicaid would have spent had
                   reimbursement been set at the other three pricing points.


                   FINDINGS
                   The FUL amounts calculated under the current method continue to
                   be substantially higher than other pricing points. In the aggregate,
                   the FUL amounts were more than four times higher than average
                   pharmacy acquisition costs in the fourth quarter of 2007. Among
                   individual products, the FUL amount was more than double the average
                   pharmacy acquisition cost for 46 of the 50 highest-expenditure FUL
                   drugs (for 24 of these, the FUL amount was at least five times higher).

                   In addition, aggregate FUL amounts in the fourth quarter of 2007 were
                   almost three times higher than average Part D payment amounts.
                   Among individual products, the FUL amount was more than double the
                   average Part D payment amount for 335 of 572 drugs (for 51 of these,
                   the FUL amount was at least five times higher).

                   Finally, in the aggregate, the FUL amounts were two times higher than
                   prices available through retail discount generic programs in the fourth
                   quarter of 2007. Among individual products, the FUL amount was more
                   than double the $4.00 retail price for a monthly supply of 129 of the
                   291 drugs included in these programs.
                   Despite the fact that States often pay less than the FUL amount for
                   multiple-source drugs, the current calculation method is still costing
                   Medicaid hundreds of millions of dollars per year. The FUL amounts
                   do not always represent the actual prices paid by Medicaid, because
                   State maximum allowable cost programs as well as usual and
                   customary charge provisions may further lower payments for

 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   ii
E X E C U T I V E               S U M M A R Y


                   multiple-source drugs. Even allowing for these reductions, average
                   Medicaid payment amounts still exceeded the other pricing points we
                   reviewed. As a result, if Medicaid had paid for 50 high-expenditure
                   FUL drugs based on the average pharmacy acquisition cost, the
                   program would have reduced expenditures by an estimated $105 million
                   in a single quarter (or more than $400 million in 1 year). Similarly, if
                   Medicaid had paid for 572 FUL drugs at the average Part D payment
                   amount, the program would have reduced expenditures by an estimated
                   $138 million in a single quarter. Finally, if Medicaid had paid all
                   pharmacies for 291 FUL drugs at the $4.00 per 30-day price available
                   through retail discount generic programs, the program would have
                   reduced expenditures by an estimated $87 million in a single quarter.
                   In the aggregate, AMP-based FUL amounts were much closer to
                   other pricing points; however, for some drugs, these FUL amounts
                   may be below acquisition costs. For the 50 FUL drugs with the
                   highest total Medicaid expenditures, fourth-quarter 2007 AMP-based
                   FUL amounts (not including dispensing fees) were 50 percent higher, in
                   the aggregate, than average pharmacy acquisition costs. For 26 of these
                   drugs, AMP-based FUL amounts were below average pharmacy
                   acquisition costs. However, for 38 of the 50 drugs, the new FUL
                   amounts were higher than the lowest reported acquisition costs. In
                   other words, pharmacies would typically have been able to purchase at
                   least one version of these drugs from a particular distributor for less
                   than the AMP-based FUL amount. These figures do not take into
                   account that in addition to being reimbursed by Medicaid for the cost of
                   the drug itself (i.e., the FUL amount, the maximum allowable cost),
                   pharmacies also receive a dispensing fee from Medicaid each time a
                   prescription is filled.

                   In addition, aggregate AMP-based FUL amounts (not including
                   dispensing fees) were 2 percent below average Part D payment amounts
                   (not including dispensing fees) in the fourth quarter of 2007. For 337 of
                   the 542 drugs, the AMP-based FUL amount was less than the average
                   Part D payment.

                   Finally, approximately half of the drugs with an AMP-based FUL in the
                   fourth quarter of 2007 were also included in at least one of the
                   $4.00 discount generic programs under review. The AMP-based FUL
                   amounts for a 30-day supply of these same drugs averaged $2.20, before
                   any dispensing fees were applied. However, given that only one State
                   had a dispensing fee that was less than $2.00 per prescription
 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   iii
E X E C U T I V E               S U M M A R Y


                   (New Hampshire was $1.75), aggregate Medicaid payment amounts
                   including the dispensing fee would still exceed the retail price under the
                   discount programs.


                   RECOMMENDATION
                   The findings of this report demonstrate that the current method for
                   setting FUL amounts continues to result in substantially inflated
                   Medicaid payments for many drugs. These FULs are frequently double
                   (and often more than five times) other prices in the marketplace. As a
                   result, Medicaid could be overpaying by hundreds of millions of dollars
                   per year for these drugs.
                   Our findings also show that AMP-based FULs calculated under the
                   DRA-prescribed methodology significantly lessen the gap between FUL
                   amounts and the other prices we examined. In the aggregate, the
                   AMP-based FULs seem to cover acquisition costs, and are very similar
                   to overall Part D reimbursement. However, despite the aggregate
                   numbers, we have some concerns that for a number of individual drugs
                   the AMP-based FUL amounts were substantially below average
                   acquisition costs and Part D payment amounts.

                   Notwithstanding these concerns, the inflated payments resulting from
                   the pre-DRA methodology that we observed in this review once again
                   illustrate the flaws in the current FUL calculation. We also understand
                   that without a legislative change and the lifting of the injunction, CMS’s
                   options are limited at this time. However, it is critical that Medicaid set
                   payment rates that are fair and appropriate to both the government and
                   providers. Therefore, we recommend that:
                   CMS should continue to work with Congress to identify strategies that
                   would lower inflated Medicaid payments for multiple-source drugs.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation. CMS also stated that our
                   findings support the agency’s belief that AMP-based FULs more
                   accurately reflect acquisition costs and prices used in other programs.
                   However, the agency expressed concerns with certain aspects of our
                   methodology.



 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   iv
E X E C U T I V E               S U M M A R Y


                   Specifically, CMS stated that actual pharmacy acquisition costs are
                   likely to be lower than the estimates used in our report because two of
                   the four responding distributors failed to provide data on price
                   concessions (i.e,. discounts, rebates, and other price adjustments). CMS
                   noted that our findings understate Medicaid payment rates because we
                   did not include dispensing fees that are paid when Medicaid
                   prescriptions are filled. The agency also noted that FULs are required
                   to be met only in the aggregate and that States have the authority to
                   pay more than the FUL amount for certain drugs.

                   OIG agrees that had all distributors included information on price
                   concessions, our estimate of the number of drugs available at prices
                   below the AMP-based FUL amounts may have increased. However,
                   based on our data, this limitation does not fundamentally change the
                   underlying issue surrounding the availability of individual drugs. In
                   addition, because this study focused primarily on the costs of the drugs
                   themselves, it would not have been appropriate to include dispensing
                   fees in most pieces of our analysis. Finally, we agree that FULs apply
                   only in the aggregate. However, it is important to balance the goal of
                   lower aggregate payment levels with the need to ensure that FUL
                   amounts cover acquisition costs for as many drugs as possible.




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   v
   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY..................................i




         INTRODUCTION ......................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                   FUL amounts calculated under the current method continue to
                   be substantially higher than other pricing points . . . . . . . . . . . . . 16

                   Despite the fact that States often pay less than the FUL amount
                   for multiple-source drugs, the current calculation method is still
                   costing Medicaid hundreds of millions of dollars per year . . . . . . 19

                   In the aggregate, AMP-based FUL amounts were much closer to
                   other pricing points; however, for some drugs, these FUL
                   amounts may be below acquisition costs . . . . . . . . . . . . . . . . . . . . 22


         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                   Agency Comments and Office of Inspector General
                   Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


                   A: Fifty Federal Upper Limit Drugs With Highest Total
                      Medicaid Expenditures in 2007 . . . . . . . . . . . . . . . . . . . . . . . . 29

                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine how Federal upper limit (FUL) amounts calculated
                     under the current method compare to (a) pharmacy acquisition costs,
                     (b) Medicare Part D payment amounts, and (c) retail prices under
                     discount generic programs.

                  2. To estimate the financial impact on the Medicaid program of
                     continuing to calculate FUL amounts using the current method.

                  3. To determine how FUL amounts calculated under the method
                     required by the Deficit Reduction Act of 2005 (DRA) compare to the
                     pricing points under review.


                  BACKGROUND
                  The FUL program was established to help ensure that Medicaid takes
                  advantage of lower market prices for multiple-source drugs. 1 However,
                  previous Office of Inspector General (OIG) work consistently found that
                  the published prices used to set Medicaid FUL amounts often greatly
                  exceeded prices available in the marketplace. 2 Based in part on this
                  work, provisions of the DRA, P.L. No. 109-171, substantially changed
                  the method for calculating FUL amounts. However, pharmacy groups
                  have expressed concern that the new FUL amounts calculated under
                  the DRA-based method may not adequately reimburse providers for
                  their costs, thereby limiting access to certain drugs. 3
                  In December 2007, in connection with a lawsuit filed by two trade
                  associations representing retail pharmacies, a Federal judge issued a
                  preliminary injunction preventing the Centers for Medicare & Medicaid
                  Services (CMS) from using the DRA-based calculation method to change
                  Medicaid reimbursement rates for retail pharmacies. Subsequently,
                  section 203 of the Medicare Improvements for Patients and Providers
                  Act of 2008 (MIPPA), P.L. No. 110-275, barred CMS from implementing


                    1 Generally a drug is considered to be multiple-source if generic versions are available.
                    2 “Comparison of Medicaid Federal Upper Limit Amounts to Average Manufacturer
                  Prices,” OEI-03-05-00110, June 2005.
                    3 See the National Association of Chain Drug Stores, “Implications of Federal Medicaid
                  Generic Drug Payment Reductions for State Policymakers,” May 2007 Issue Brief.
                  Available online at http://www.nacds.org/user-assets/pdfs/gov_affairs/issues/Medicaid/
                  ImplicationsFederalMedicaidGenericDrugPaymentReductionsStatePolicymakers.pdf.
                  Accessed on April 17, 2009.


OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS            1
I N T R O D U C T I O N


                     the new FUL calculation method until October 1, 2009. As of May 2009,
                     CMS is still calculating FUL amounts using the pre-DRA methodology.
                     Medicaid Reimbursement for Prescription Drugs
                     Currently, all 50 States and the District of Columbia (hereinafter
                     referred to as States) offer prescription drug coverage under Medicaid.
                     In 2007, Medicaid payments for prescription drugs totaled
                     approximately $22 billion. 4
                     Federal regulations require, with certain exceptions, that each State
                     Medicaid agency’s reimbursement for a covered outpatient drug not
                     exceed (in the aggregate) the lower of the estimated acquisition cost
                     plus a reasonable dispensing fee or the provider’s usual and customary
                     charge to the public for the drugs. 5 6 CMS allows States the flexibility
                     to define estimated acquisition cost, with most States basing their
                     calculations on list prices published in national compendia.

                     For certain drugs, States also use the FUL or State maximum allowable
                     cost programs in setting reimbursement. As of the fourth quarter of
                     2008, 45 States have implemented maximum allowable cost programs to
                     limit reimbursement for certain multiple-source drugs. 7 Individual
                     States determine the types of drugs that are included in their maximum
                     allowable cost program, and the methods by which the maximum
                     allowable cost is calculated.
                     The FUL Program
                     According to CMS’s Web site, the FUL program was created to ensure
                     that the Federal Government acts as a prudent buyer by taking
                     advantage of current market prices for multiple-source drugs. 8 CMS

                       4 Calculated using national summary data for 2007. This amount includes both Federal
                     and State payments. Rebates collected by States under the Medicaid drug rebate program
                     were not subtracted from this figure. National and State utilization data are available
                     online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/SDUD/list.asp. Accessed
                     on September 17, 2008.
                       5 42 CFR § 447.512.
                       6 At the time of our review, State dispensing fees to retail pharmacies for generic drugs
                     generally ranged from $1.75 to $7.25 per prescription, with fees in more than two-thirds of
                     States falling between $3.50 and $5.00. Source: CMS, “Medicaid Prescription
                     Reimbursement Information by State – Quarter Ending December 2007.”
                       7 CMS, “Medicaid Prescription Reimbursement Information by State – Quarter Ending
                     December 2008.”
                       8 CMS, “Transmittal No. 37 – Federal Upper Limit Drug List,” Available online at
                     http://www.cms.hhs.gov/Reimbursement/05_FederalUpperLimits.asp. Accessed on
                     September 17, 2008.


   OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS            2
I N T R O D U C T I O N



                    calculates a FUL amount for specific forms and strengths for each
                    multiple-source drug that meets the established criteria. As of
                    December 31, 2007, there were 576 drugs included on the FUL list.
                    According to CMS data, these drugs accounted for 8 percent
                    ($1.8 billion) of Medicaid prescription drug expenditures in 2007.

                    Prior to the DRA, section 1927(e)(4) of the Social Security Act (the Act)
                    and 42 CFR § 447.332 generally required CMS to establish a FUL
                    amount for a drug when: (1) three or more formulations of the drug
                    were rated as therapeutically equivalent by the Food and Drug
                    Administration and (2) at least three suppliers of the drug were listed in
                    current editions of published compendia of cost information for drugs
                    available for sale nationally. As originally set forth in 42 CFR
                    § 447.332, FUL amounts are equal to 150 percent of the price published
                    in national compendia for the least costly therapeutically equivalent
                    product that can be purchased by pharmacists in quantities of
                    100 tablets or capsules, plus a reasonable dispensing fee. 9 10 States are
                    required to meet the FUL requirements only in the aggregate, i.e., a
                    State may pay more than the FUL amount for certain products as long
                    as these payments are balanced out by lower payments for other
                    products.

                    The most commonly used published prices in setting FULs are
                    wholesale acquisition costs (WAC), average wholesale prices (AWP), and
                    direct prices. National compendia, such as Redbook, publish these
                    figures based on information provided by drug manufacturers.
                    Although the definition of WAC is prescribed by Federal law, neither
                    AWP nor direct price is defined in statute or regulation. 11
                    Changes to the FUL Program Under the Deficit Reduction Act of 2005
                    Due in part to OIG work that showed FULs based on published prices
                    were significantly higher than other prices in the marketplace, 12 the

                       9 For liquid drugs or drugs not typically available in quantities of 100, the FUL amount
                    is based on the price for a commonly listed size of the product.
                     10 42 CFR § 447.332 has been removed, and regulatory provisions relating to FULs for
                    multiple-source drugs are now found in 42 CFR § 447.514.
                      11 Pursuant to section 1847A(c)(6)(B) of the Act, WAC is generally defined as the drug
                    manufacturer’s list price to wholesale distributors or direct purchasers, not including
                    prompt pay or other discounts, rebates, or reductions in price, as reported in wholesale price
                    guides or other publications of drug or biological pricing data.
                      12 “Comparison of Medicaid Federal Upper Limit Amounts to Average Manufacturer
                    Prices,” OEI-03-05-00110, June 2005.


  OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS            3
I N T R O D U C T I O N


                   DRA made significant changes to the FUL program. Pursuant to
                   section 6001(a) of the DRA, FUL amounts would be based on
                   250 percent of the lowest reported average manufacturer price (AMP)
                   for each drug rather than 150 percent of the lowest price published in
                   national compendia.

                   As generally defined in section 1927(k)(1) of the Act, AMP is the average
                   price paid to the manufacturer for the drug in the United States by
                   wholesalers for drugs distributed to the retail pharmacy class of trade.
                   The AMP is generally calculated as a weighted average of prices for a
                   manufacturer’s package sizes of a drug sold during a given quarter and
                   is reported for the lowest identifiable quantity of the drug. Prior to the
                   passage of the DRA, section 1927(b)(3) of the Act required
                   manufacturers to provide CMS with the AMP for each of their covered
                   drugs on a quarterly basis, with submissions due 30 days after the close
                   of each quarter. Under the DRA provisions, manufacturers must also
                   report AMPs on a monthly basis, with submissions due 30 days after the
                   end of each month. 13 The DRA provisions require CMS to disclose AMP
                   data to both States and the public, thereby allowing States the option of
                   using the AMP when setting reimbursement rates for covered drugs. 14
                   The DRA also expanded the criteria for including a drug in the FUL
                   program. Pursuant to section 6001(a) of the DRA, for a FUL to be set
                   for a drug, only two therapeutically equivalent versions are required.
                   Implementation of FUL Amounts Based on AMPs
                   In July 2007, CMS published a final rule that among other things,
                   implemented the DRA provisions related to FULs. 15 For example,
                   42 CFR § 447.504 of the regulation outlines the manner in which the
                   AMP is to be determined, and 42 CFR § 447.514 addresses the new
                   criteria for the establishment of FUL amounts. Pursuant to 42 CFR
                   § 447.514(c), CMS will exclude the lowest AMP from the FUL
                   calculation if it is an outlier. CMS defines an outlier as a lowest AMP
                   that is less than 40 percent of the second-lowest AMP (i.e., a lowest
                   AMP that is more than 60 percent below the second lowest AMP), with




                     13 DRA, § 6001(b)(1)(A).
                     14 DRA, § 6001(b). Prior to the DRA, section 1927(b)(3)(D) of the Act guaranteed the
                   confidentiality of AMP data reported by manufacturers (with certain exceptions).
                     15 72 Fed. Reg. 39142, 39244 (July 17, 2007).



 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS       4
I N T R O D U C T I O N


                   certain exceptions. 16 According to CMS, the outlier policy is designed to
                   help ensure that two or more drug products can be purchased at or
                   below the FUL amount. 17
                   In addition, in the preamble to the regulation, CMS explained that it
                   intends to use monthly AMPs when calculating FUL amounts. 18 The
                   monthly AMP-based FULs will represent transactions that occurred
                   3 months previously. 19 For example, had the new DRA requirements
                   been in effect during December 2008, FULs published for that month
                   would have been based on AMPs submitted by manufacturers for sales
                   in September 2008.

                   Although the final regulation took effect on October 1, 2007, CMS has
                   yet to use AMP data when establishing FUL amounts (as of
                   August 2009). Initially, CMS planned to issue the first AMP-based
                   FULs on December 30, 2007. 20 However, on December 19, 2007, the
                   U.S. District Court for the District of Columbia issued a preliminary
                   injunction which prevented CMS from implementing its final rule
                   concerning AMPs to the extent that the rule affects Medicaid
                   reimbursement rates for retail pharmacies. In July 2008, the MIPPA
                   further delayed the implementation of new FULs based on AMPs.
                   Consistent with sections 203(a) and (b) of the MIPPA, CMS must not
                   take action to implement AMP-based FUL amounts or publicly disclose
                   AMP data before October 1, 2009. Until at least that time, AMPs will
                   not be publicly disclosed and FUL amounts will continue to be
                   calculated using the pre-DRA methodology, i.e., 150 percent of the
                   lowest published price. 21 In addition, as of August 2009, CMS has not
                   yet implemented the expanded DRA criteria for including
                   multiple-source drugs on the FUL list.
                   Pharmacy Acquisition of Prescription Drugs
                   In most cases, Medicaid beneficiaries obtain covered drugs from
                   pharmacies. Pharmacies typically purchase drugs through wholesale


                     16 Pursuant to 42 CFR § 447.514(c)(3), the outlier policy will not apply when the FUL
                   group includes only the brand name drug and the first new generic or authorized generic
                   drug that has entered the market.
                     17 72 Fed. Reg. 39142, 39216 (July 17, 2007).
                     18 72 Fed. Reg. 39142, 39207 (July 17, 2007).
                     19 CMS, “Average Manufacturer Price/Federal Upper Limits Timeline.”
                     20 Ibid.
                     21 MIPPA, §§ 203(a) and (b).



 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS        5
I N T R O D U C T I O N


                   distributors or directly from manufacturers. According to industry
                   reports, three companies (AmeriSource Bergen, Cardinal Health, and
                   McKesson) account for between 90 percent and 95 percent of the drug
                   wholesale distributor market share, and four out of every five drugs sold
                   in the United States are obtained through one of these three
                   companies. 22
                   Medicare Part D Payment for Prescription Drugs
                   The Medicare Prescription Drug, Improvement, and Modernization Act
                   of 2003, P.L. No. 108-173, established Medicare Part D to provide
                   prescription drug coverage to Medicare beneficiaries. While Medicaid is
                   administered by State Medicaid agencies, CMS contracts with private
                   companies to administer Part D prescription drug plans.

                   Pharmacy reimbursement under Medicare Part D is based, in part, on
                   negotiated prices. CMS defines negotiated prices (or point-of-sale
                   prices) as prices for covered Part D drugs that: (1) are available to
                   beneficiaries at the point of sale at network pharmacies; (2) are reduced
                   by those discounts, direct or indirect subsidies, rebates, other price
                   concessions, and direct or indirect remunerations that the Part D
                   sponsor has elected to pass through to Part D enrollees at the point of
                   sale; and (3) include any pharmacy dispensing fees. 23 Negotiated prices
                   are typically based on agreements between manufacturers, plan
                   sponsors, and affiliated contractors (e.g., pharmacy benefit managers).
                   Although negotiated prices are a basis for pharmacy reimbursement,
                   they do not reflect all costs to the Government for Part D. 24
                   Medicare beneficiaries typically obtain prescription drugs from
                   pharmacies, which contract with Part D sponsors to obtain
                   reimbursement for these drugs. According to CMS staff, negotiated

                     22 “Growing Share of ‘Big Three’ Gets Federal Attention.” Market Watch. May 30, 2007.
                   Available online at http://www.marketwatch.com/news/story/growing-share-big-three-
                   drug/story.aspx?guid=%7B9F3862C1-7E3A-4D82-94B7-A8E4AE5DAE6A%7D. Accessed on
                   April 7, 2009.
                     23 Ibid.
                     24 The program costs of Medicare Part D are determined by plan bids and reconciliation
                   payments. Once a year, each plan sponsor submits a bid, which is an estimate of the
                   average cost to provide the basic benefit per beneficiary. Throughout the year, CMS makes
                   prospective payments to sponsors for three subsidies based on sponsors’ approved bids.
                   These subsidies are: (1) the direct subsidy, (2) the reinsurance subsidy, and (3) the
                   low-income cost-sharing subsidy. Plan sponsors and CMS then reconcile actual costs and
                   prospective payments at the end of the year. Source: CMS, “2006 Prescription Drug Event
                   Data Training Participant Guide.”


 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS         6
I N T R O D U C T I O N


                   prices used for pharmacy reimbursement are usually based on the AWP
                   discounted by a specified percentage or maximum allowable cost plus a
                   dispensing fee.
                   Retail Chain Generic Prescription Drug Programs
                   Several large retail chain stores sponsor prescription drug programs
                   where a selected number of multiple-source drugs are sold at a set price.
                   For example, as of March 2009, Wal-Mart offers more than 300 different
                   multiple-source drugs at $4.00 for a 30-day supply and $10 for a 90-day
                   supply. Similarly, other retail chains have comparable plans that offer
                   30-day or 90-day supplies of multiple-source drugs for prices similar to
                   Wal-Mart. 25 Many of the drugs offered by these chains are covered by
                   Medicaid’s FUL program.

                   Based on Medicaid’s usual and customary charge provisions, if a
                   beneficiary obtains a drug through one of these retail generic programs,
                   the program should generally reimburse the pharmacy at the
                   discounted price, i.e., $4.00 for the 30-day supply (assuming that price is
                   lower than the FUL amount, maximum allowable cost, etc.). 26 In these
                   cases, Medicaid would not pay an additional dispensing fee to the
                   pharmacy because the $4.00 amount represents the total charge
                   associated with the beneficiary’s receipt of the drug.
                   Previous OIG Work on the FUL Program
                   In our June 2005 report, “Comparison of Medicaid Federal Upper Limit
                   Amounts to Average Manufacturer Prices” (OEI-03-05-00110), we found
                   that FUL amounts were five times higher than average AMPs. At that
                   time, we recommended that CMS work with Congress to set FUL
                   amounts that more closely approximate pharmacy acquisition costs.

                   In June 2007, OIG released a report assessing the potential effect of
                   AMP-based FULs entitled “Deficit Reduction Act of 2005: Impact on the
                   Medicaid Federal Upper Limit Program” (OEI-03-06-00400). We found
                   that pre-DRA FUL amounts substantially exceeded estimated average
                   pharmacy acquisition costs for 25 selected drugs in the second quarter
                   of 2006, but would decrease considerably under the new calculation

                     25 At the time of our review, other retail chains with $4.00/30-day discount prescription
                   drug programs included Kroger, Target, Safeway, Delhaize, Basha’s, and Giant Eagle.
                   Several other companies offered similar programs for 90-day supplies only.
                     26 If the pharmacy charges a fee to join their discount generic program, CMS does not
                   have a stated policy as to whether the prices charged under that program would meet the
                   definition of a usual and customary charge to the public.


 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS            7
I N T R O D U C T I O N


                   method established by the DRA. In fact, pharmacies would only have
                   been able to purchase 6 of the 25 reviewed drugs for less than the new
                   FUL amount, on average. 27 We recommended that CMS take steps to
                   identify when a new FUL amount was not representative of a drug’s
                   acquisition cost, and in these cases, determine a proper course of action.

                   In OIG’s February 2009 report, “Comparing Pharmacy Reimbursement:
                   Medicare Part D to Medicaid” (OEI-03-07-00350), we found that the
                   average Medicaid pharmacy reimbursement amounts typically exceeded
                   the average Part D reimbursement amounts for selected multiple-source
                   drugs. Specifically, for the 14 FUL drugs included in that review, the
                   average Medicaid reimbursement amount for all but one exceeded the
                   average Part D reimbursement amount. At the median, the Medicaid
                   reimbursement amount was 32 percent greater than the Part D
                   reimbursement amount for these 14 drugs. In addition, we found that
                   Medicaid dispensing fees in the five States under review exceeded
                   average Part D dispensing fees for multiple-source drugs by at least
                   55 percent.


                   METHODOLOGY
                   Scope
                   This study compared the FUL amounts calculated under both the
                   current pre-DRA method and the AMP-based method to several pricing
                   points:

                       1. estimated fourth-quarter 2007 pharmacy acquisition costs for
                          the 50 FUL drugs with the highest total Medicaid expenditures
                          in 2007,

                       2. average Part D pharmacy payment amounts for nearly all FUL
                          drugs in the fourth quarter of 2007, and

                       3. retail pricing for any FUL drugs included in selected companies’
                          discount generic programs.

                   The 50 drugs in the first comparison accounted for 52 percent
                   ($941 million) of total Medicaid expenditures for the FUL drugs in 2007.



                     27 At the time OIG conducted its assessment, CMS had not fully developed its outlier
                   policy. Therefore, for the purposes of that report, the FUL amounts were calculated without
                   regard to outlier AMPs.


 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS       8
I N T R O D U C T I O N


                   Because many States pay less than the FUL amount for drugs through
                   maximum allowable cost programs and usual and customary charge
                   provisions, we also calculated average Medicaid payment amounts for
                   each drug on the FUL list in the fourth quarter of 2007. We compared
                   the average Medicaid payment amounts to each of the three pricing
                   points described above.

                   We estimated pharmacy acquisition costs for the fourth quarter of 2007
                   based on information obtained from wholesale distributors of
                   prescription drugs. Responding distributors represent approximately
                   90 percent to 95 percent of the pharmaceutical distribution industry’s
                   market share and revenue. We limited our analysis of retail chain
                   discount pricing to 30-day supplies of drugs, although some programs
                   did offer 90-day supplies for a lower per-unit price.

                   To estimate the financial impact of continuing to base the FUL amounts
                   on the current method, we compared actual Medicaid expenditures for
                   the FUL drugs under review to the amount Medicaid would have spent
                   had reimbursement been set at the other three pricing points.
                   FUL Amounts and Medicaid Payments
                   Current FUL amounts. Using information in the drug compendium
                   Redbook, we obtained CMS-calculated FUL amounts for all 576 drugs
                   included on the FUL list in the fourth quarter of 2007. We verified the
                   Redbook information by comparing drug name and FUL amount data to
                   the FUL listings on CMS’s Web site.

                   AMP-based FUL amounts. We also obtained from CMS a file listing the
                   December 2007 FUL amounts as calculated under the unimplemented
                   DRA methodology (i.e., 250 percent of the lowest AMP). Although CMS
                   is currently prohibited from reimbursing based on this method, the
                   agency is still calculating AMP-based FUL amounts for internal use.
                   CMS applied its outlier policy when determining these FUL amounts.
                   CMS had calculated AMP-based FULs for 542 of the 576 drugs included
                   on the FUL list in the fourth quarter of 2007. 28
                   Average Medicaid payment amounts. We obtained the 2007 Medicaid
                   drug utilization file from CMS’s Web site. This file provides the total
                   Medicaid expenditures (ingredient costs and dispensing fees), the total


                     28 Under the expanded DRA criteria, CMS has calculated AMP-based FUL amounts for a

                   total of 1,207 drugs.


 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   9
I N T R O D U C T I O N


                   number of prescriptions, and the total number of units dispensed by
                   each State for prescription drugs in each quarter of 2007. Using this
                   data, we calculated an average Medicaid payment per unit in the fourth
                   quarter of 2007 for each drug on the FUL list by dividing the total
                   expenditures by the total units. Because the total expenditure data
                   includes a dispensing fee, we also calculated a second average Medicaid
                   payment for the ingredient cost portion only. 29
                   Pharmacy Acquisition Costs
                   Determining pharmacy acquisition costs. Using data from the Medicaid
                   drug utilization file, we identified the 50 FUL drugs with the highest
                   total Medicaid expenditures in 2007 (please refer to Appendix A for a
                   list of the 50 drugs). We sent data requests for fourth-quarter 2007
                   pricing and sales data to the three largest national distributors
                   (AmerisourceBergen, McKesson, and Cardinal Health) and two smaller
                   regional distributors (Mutual Drug Company and Burlington Drug
                   Company). Each distributor was asked to provide the total dollar
                   amount sold; the amount of any price concessions (e.g., discounts,
                   rebates, and other price adjustments) paid to purchasers; the net dollar
                   amount sold; the total number of units sold; and the average selling
                   price during the fourth quarter of 2007 for all national drug codes
                   associated with the 50 highest-expenditure FUL drugs. 30
                   Four of the five distributors (three national and one regional) responded
                   to our request in time for their cost data to be included. Because of the
                   highly sensitive nature of the data, we are not listing average
                   acquisition costs for individual FUL drugs. Only two of the four
                   distributors provided information on price concessions.

                   To estimate average pharmacy acquisition costs per unit for each of the
                   50 selected highest-expenditure drugs, we totaled the dollar amount
                   sold (net of any price concessions, when provided) by the four


                      29 We could only calculate this cost for States that had relatively simple formulas for
                   determining the dispensing fees paid to retail pharmacies (e.g., $4.00 per generic
                   prescription). For the 45 States that had a relatively simple dispensing fee, we calculated
                   the unit Medicaid ingredient cost for each drug by subtracting the total dispensing fees paid
                   from total expenditures in the fourth quarter of 2007. To calculate total dispensing fees, we
                   multiplied the State’s dispensing fee from the fourth quarter of 2007 by the total number of
                   prescriptions for each drug. For each FUL drug, we then divided the total ingredient costs
                   by the total number of units dispensed.
                     30 National drug codes are unique 11-digit identifiers that indicate the manufacturer,
                   product dosage form, and package size of a drug.


 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS         10
I N T R O D U C T I O N


                   responding distributors and divided this amount by the total number of
                   units sold. For the purpose of this report, these estimates will
                   hereinafter be referred to as “average pharmacy acquisition costs.” We
                   also determined the lowest unit price reported to OIG by the
                   distributors for any version (i.e., national drug code) of each drug.

                   Comparing pharmacy acquisition costs to Medicaid. For each of the
                   50 drugs, we compared the average pharmacy acquisition costs to the
                   current FULs, AMP-based FULs, and average Medicaid payment
                   amounts. We also compared the AMP-based FULs to the lowest costs
                   reported by the distributors. Because FULs apply in the aggregate, we
                   also determined an overall difference between acquisition costs and the
                   two FUL amounts. To calculate aggregate differences, we determined
                   how much Medicaid would have spent for each drug if it had paid at
                   acquisition cost by multiplying the acquisition cost by the number of
                   units of the drug reimbursed by Medicaid in the fourth quarter of 2007.
                   We compared the result to potential spending under the pre-DRA and
                   AMP-based FUL methodologies (which were calculated using the same
                   method—FUL amounts multiplied by Medicaid fourth-quarter 2007
                   utilization). All the comparisons described above only addressed the
                   ingredient cost of the drugs and not any dispensing fees.

                   Estimating potential costs. We estimated the potential costs to Medicaid
                   of continuing to use the current calculation method in setting the FUL
                   amounts by comparing the total amount Medicaid actually spent on the
                   FUL drugs under review in the fourth quarter of 2007 (net of dispensing
                   fees) to aggregate spending had reimbursement been set at the average
                   pharmacy acquisition cost.
                   Medicare Part D Payment Amounts
                   Determining Part D payment amounts. For all drugs included in the FUL
                   program, we obtained fourth-quarter 2007 prescription drug event
                   (PDE) records from CMS. A PDE record contains the ingredient cost
                   and the dispensing fee paid to the pharmacy for each claim. In the
                   fourth quarter of 2007, 572 of the 576 drugs on the FUL list had been
                   reimbursed under Part D. 31 To determine the average Part D payment
                   amount per unit for each FUL drug, we totaled the dollar amount
                   reimbursed for the ingredient cost portion and divided this amount by
                   the number of units reimbursed.

                     31 All 542 drugs with AMP-based FULs had Part D reimbursement that quarter.



 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   11
I N T R O D U C T I O N


                   Comparing Part D payment amounts to Medicaid. We then compared the
                   average Part D payment amounts to the current FULs, AMP-based
                   FULs, and average Medicaid payment amounts for each of the drugs.
                   Because FULs apply in the aggregate, we also determined an overall
                   difference between Part D payment amounts and the two FUL amounts.
                   To calculate aggregate differences, we determined how much Medicaid
                   would have spent for each drug if it had paid at the average Part D
                   amount by multiplying the Part D payment amount by the number of
                   units of the drug reimbursed by Medicaid in the fourth quarter of 2007.
                   We compared the result to potential spending under the pre-DRA and
                   AMP-based FUL methodologies (which were calculated using the same
                   method—FUL amounts multiplied by Medicaid fourth-quarter 2007
                   utilization). All the comparisons described above only addressed the
                   ingredient cost of the drugs and not any dispensing fees.

                   Estimating potential costs. We estimated the potential costs to Medicaid
                   of continuing to use the current calculation method in setting the FUL
                   amounts by comparing the total amount Medicaid actually spent on the
                   FUL drugs under review in the fourth quarter of 2007 (net of dispensing
                   fees) to aggregate spending had reimbursement been set at the Part D
                   payment amount.
                   Prices Under Retail Generic Programs
                   Determining drugs included in programs. We selected seven retail chain
                   pharmacies that offered a $4.00/30-day discount generic program:
                   WalMart, Target, Safeway, GiantEagle, Kroger, Basha’s, and
                   Delhaize. 32 From each chain company’s Web site, we obtained
                   information on each program including a list of the covered drugs and
                   the quantity dispensed for a 30-day supply. 33 In total, 291 FUL drugs
                   were included in at least one company’s discount generic program. 34
                   The prices offered by these programs are the final cost for the drugs,
                   i.e., no additional dispensing fee is paid by the customer/payor.

                   Comparing retail prices to Medicaid. The price for all 291 drugs included
                   in the selected retail discount generic programs was $4.00 for a 30-day

                     32 Basha’s actually charged $3.99 per month. For analysis purposes, we rounded this
                   amount to $4.00
                     33 Discount generic program information was obtained from company Web sites during
                   the third and fourth quarters of 2008. We could not determine whether any of the drugs
                   included in these programs had changed since the fourth quarter of 2007.
                     34 CMS had calculated AMP-based FULs for 279 of these 291 drugs.



 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS       12
I N T R O D U C T I O N


                   supply. In comparing FULs to retail generic programs, we based our
                   calculations on a 30-day cost of the drugs rather than per-unit prices.
                   To determine the corresponding FUL amount for a 30-day supply for
                   each of the 291 drugs included in at least one discount generic program,
                   we multiplied the per-unit FUL amount by the number of units in a
                   30-day supply of the drugs. 35 We compared the results to the
                   $4.00 prices offered under the discount generic programs.

                   Because FULs apply in the aggregate, we also determined an overall
                   difference between retail prices and the two FUL amounts. To calculate
                   aggregate differences, we determined how much Medicaid would have
                   spent for each drug if it had paid all pharmacies at the price available
                   through the retail generic programs by multiplying the $4.00 retail
                   price by the number of “30-day supplies” of the drug reimbursed by
                   Medicaid in the fourth quarter of 2007. We compared the result to
                   potential spending under the pre-DRA and AMP-based FUL
                   methodologies (which were calculated using the same method—FUL
                   amounts multiplied by Medicaid fourth-quarter 2007 utilization).
                   Because the retail prices under these programs are the total prices paid,
                   the comparisons described above would underestimate actual price
                   differences given that the FUL amounts represent ingredient costs only
                   and do not include dispensing fees.

                   Estimating potential costs. We estimated the potential costs to Medicaid
                   of continuing to use the current calculation method in setting the FUL
                   amounts by comparing the total amount Medicaid actually spent on the
                   FUL drugs under review in the fourth quarter of 2007 to aggregate
                   spending at these retail prices. Because we were able to include
                   dispensing fees in this particular comparison (i.e., the total Medicaid
                   expenditures used in this calculation included dispensing fees), the
                   potential costs figure is based on total costs under both pricing points,
                   and does not underestimate potential program savings.

                   Tables 1 and 2 in the next page summarize the number of drugs used in
                   each comparison and whether or not dispensing fees were included in
                   the analysis.




                     35 For 47 drugs, the number of units (e.g., pills), in a 30-day supply was not identical for
                   each company. To be conservative, in analyzing costs for these drugs, we used the lowest
                   number of units listed by any company.


 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS           13
    I N T R O D U C T I O N



Table 1: Number of Drugs Included in Each Comparison
                                                           Average                  Medicare Part D                  Retail Discount Generic
Method                                             Acquisition Cost               Payment Amounts                             Program Prices

Current FUL                                                        50                                  572                                 291


AMP-Based FUL                                                      50                                  542                                 279




Table 2: Inclusion of Dispensing Fee in Analysis
                                                           Average                  Medicare Part D                  Retail Discount Generic
Method                                             Acquisition Cost               Payment Amounts                             Program Prices

                                                                                                                FUL is Ingredient Cost Only
Current FUL                                   Ingredient Cost Only               Ingredient Cost Only                    Retail is Total Cost


                                                                                                                FUL is Ingredient Cost Only
AMP-Based FUL                                 Ingredient Cost Only               Ingredient Cost Only                    Retail is Total Cost


                                                                                                                 Total Cost (Ingredient Cost
Average Medicaid Cost/Savings                 Ingredient Cost Only               Ingredient Cost Only                  and Dispensing Fee)



                                Limitations
                                Our analysis is limited to drugs listed by CMS as being included in the
                                FUL program in the fourth quarter of 2007. CMS has not yet
                                implemented the DRA’s expanded criteria (i.e., two therapeutically
                                equivalent versions instead of the current three therapeutically
                                equivalent versions).

                                For both the pre-DRA and AMP-based FULs, we used the amounts
                                calculated by CMS. We did not verify that pre-DRA FUL amounts were
                                actually set at 150 percent of the lowest published price, or that the
                                AMP-based FULs were set at 250 percent of the lowest AMP (excluding
                                outliers).

                                Four of the five distributors responded to our data request in time to be
                                included in the analysis. Two of the four responding distributors did not
                                provide data on price concessions. Therefore, pharmacies’ bottom-line
                                costs for some drugs may be lower than the estimates used in the
                                report. In addition, we did not determine whether the prices reported
                                by the distributors were nationally available to all pharmacies.




       OEI-03-08-00490          COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS                    14
I N T R O D U C T I O N


                   The percentage differences between FULs and other pricing points are
                   limited to the drugs included in each comparison, and are not
                   projectable to all drugs covered under the Medicaid FUL program.

                   We did not verify the accuracy or completeness of sales data from
                   wholesalers used to estimate pharmacy acquisition costs, PDE data,
                   or data received from retail chain pharmacies’ Web sites. In addition,
                   we analyzed Medicaid utilization data summarized by drug, i.e., we
                   did not analyze claims-level data.

                   We did not verify whether drugs purchased at pharmacies with discount
                   generic programs were billed and reimbursed at the usual and
                   customary charge (i.e., $4.00) rather than the FUL amount or State
                   maximum allowable cost plus a dispensing fee.

                   We did not include rebates available to States through the Medicaid
                   drug rebate program or any post-point-of-sale price concessions
                   available to Part D plan sponsors, pharmacies, or beneficiaries in this
                   analysis.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” approved by the Council of the Inspectors General on
                   Integrity and Efficiency.




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   15
F I    N D I  N G S
         F I N D I N G S

                                                             Consistent with previous OIG
     FUL amounts calculated under the current                findings, the FUL amounts under
method continue to be substantially higher than              the pre-DRA methodology (i.e.,
                          other pricing points               150 percent of the lowest
                                                             published price) substantially
                        exceeded other prices in the marketplace. In the fourth quarter of 2007,
                        the FUL amounts, both in the aggregate and for many individual drugs,
                        were often several times higher than average pharmacy acquisition
                        costs, Part D payment amounts, and retail generic program prices.
                        In the aggregate, FUL amounts calculated under the current methodology
                        were more than four times higher than average pharmacy acquisition costs
                        in the fourth quarter of 2007
                        For the 50 FUL drugs with the highest total Medicaid expenditures,
                        fourth-quarter 2007 FUL amounts were 4.32 times higher, in the
                        aggregate, than average pharmacy acquisition costs. This figure does
                        not take into account that in addition to being reimbursed by Medicaid
                        for the cost of the drug itself (i.e., the FUL amount, the maximum
                        allowable cost), pharmacies usually receive a dispensing fee from
                        Medicaid each time a prescription is filled. 36
                        Among individual products, 47 of the 50 drugs under review had FUL
                        amounts that exceeded average pharmacy acquisition costs. In all but
                        one of these cases, the FUL amounts were more than double average
                        pharmacy acquisition costs. For almost half of the drugs under review
                        (24 of 50), the FUL amount was at least five times greater than the
                        average pharmacy acquisition cost. For example, pharmacies were able
                        to purchase Gabapentin 300 milligrams (mg) (the product with the
                        second-highest total Medicaid payments among FUL drugs) for an
                        average of $0.08 per capsule in the fourth quarter of 2007; at that time,
                        the FUL amount was $1.31 per capsule. Table 3 provides a summary of
                        the difference between the FUL amounts and the average pharmacy
                        acquisition costs in the fourth quarter of 2007 for the drugs under
                        review.

                        Actual dollar differences between the FUL amounts and the average
                        pharmacy acquisition costs varied substantially, depending on a drug’s
                        cost and the amount of a drug represented by one unit (e.g., 1 tablet,


                          36 Pharmacies would not receive a dispensing fee if they were reimbursed at their usual

                        and customary charge rather than the FUL or the maximum allowable cost.


      OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS      16
F I     N D I        N G      S




                              1 milliliter of liquid, 1 gram of cream). Differences ranged from $0.02 to
                              $6.08 per unit, with 32 of the 50 drugs having a unit price difference of
                              less than $0.50.


  Table 3: Comparison of Pre-DRA FUL Amounts to Average Pharmacy Acquisition
  Costs in the Fourth Quarter of 2007
                                                                                                           Number of    Percentage of
  Difference                                                                                                  Drugs            Drugs

  FUL amount less than average pharmacy acquisition cost                                                            3           6 percent

  FUL amount between 0.01 and 2 times higher than average pharmacy acquisition cost                                 1           2 percent

  FUL amount between 2.01 and 5 times higher than average pharmacy acquisition cost                                22      44 percent

  FUL amount between 5.01 and 10 times higher than average pharmacy acquisition cost                               10      20 percent

  FUL amount more than 10 times higher than average pharmacy acquisition cost                                      14      28 percent

      Total Drugs                                                                                                  50     100 percent


      Aggregate Amount Higher Than Average Pharmacy Acquisition Cost                                               4.32 times
Source: OIG analysis of CMS FUL Data and Distributor Sales Data.

                              In the aggregate, the FUL amounts calculated under the current
                              methodology were almost three times higher than average Part D payment
                              amounts in the fourth quarter of 2007
                              Fourth-quarter 2007 FUL amounts were 2.91 times higher, in the
                              aggregate, than average Part D payment amounts. This figure does not
                              take into account that both Medicaid and Part D usually pay a
                              dispensing fee in addition to the ingredient cost payment. 37
                              Among individual products, the FUL amount was higher than the
                              average Part D payment for 546 out of the 572 drugs reviewed
                              (95 percent). In 335 cases (59 percent), the FUL amount was more than
                              double the Part D payment, and for 51 of these, the FUL amount was at
                              least five times higher. Table 4 provides a summary of the difference
                              between the FUL amounts and the average Part D payment amounts in
                              the fourth quarter of 2007 for the drugs under review.



                                  37 As previously stated, in a February 2009 OIG report (OEI-03-07-00350), we found that
                              Medicaid dispensing fees in the five States under review exceeded Part D dispensing fees
                              for multiple-source drugs by at least 55 percent.


  OEI-03-08-00490             COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS                     17
F I     N D I          N G       S




                                Actual dollar differences ranged from less than $0.01 to $6.98 per unit,
                                with 434 of the 572 drugs having a unit price difference of less than
                                $0.50.

   Table 4: Comparison of Pre-DRA FUL Amounts to Average Part D Payment
   Amounts in the Fourth Quarter of 2007
                                                                                                            Number of       Percentage of
  Difference                                                                                                   Drugs               Drugs

  FUL amount less than average Part D payment amount                                                                   26        5 percent


  FUL amount between .01 and 2 times higher than average Part D payment amount                                     211          37 percent


  FUL amount between 2.01 and 5 times higher than average Part D payment amount                                    284          50 percent


  FUL amount between 5.01 and 10 times higher than average Part D payment amount                                       46        8 percent


  FUL amount more than 10 times higher than average Part D payment amount                                              5         1 percent


      Total Drugs                                                                                                  572      100 percent*


      Aggregate Amount Higher Than Average Part D Payment Amount                                                   2.91 times
* Individual totals displayed in table do not add up to 100 percent because of rounding.

Source: OIG analysis of CMS FUL Data and Retail Chain Pricing.



                                In the aggregate, the FUL amounts calculated under the current
                                methodology were double the prices available through retail discount
                                generic programs
                                Fourth-quarter 2007 FUL amounts were 1.97 times higher, in the
                                aggregate, than prices available through retail discount generic
                                programs. Approximately half (291) of the drugs included on the FUL
                                list in the fourth quarter of 2007 were also included in at least one of
                                the discount generic programs under review.38 Under the discount
                                programs, each of these drugs had a retail price of $4.00 for a 30-day
                                supply (total cost to the consumer). In the aggregate, the FUL amounts
                                for a 30-day supply of these same drugs averaged $7.87 before any
                                dispensing fees were applied. 39



                                     38 However, only 18 of the 50 FUL drugs with the highest total Medicaid expenditures

                                were included in at least one discount program.
                                     39 As previously stated, the majority of States have dispensing fees between $3.50 and
                                $5.00 per prescription.


   OEI-03-08-00490              COMPARISON    OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS    TO   OTHER PRICING POINTS                    18
 F I     N D I         N G       S




                                 Among individual products, 212 of the 291 drugs had monthly FUL
                                 amounts that were above the $4.00 retail price, with 129 exceeding
                                 $8.00 (see Table 5). For Fluoxetine 40 mg capsules, the FUL amount for
                                 a 30-day supply was $120, or 30 times higher than the retail price.

   Table 5: Comparison of Pre-DRA FUL Amounts to Retail Prices Under
   $4.00/30-day Discount Generic Programs
                                                                                                             Number of       Percentage of
   Difference                                                                                                   Drugs               Drugs

   FUL amount for 30-day supply less than or equal to $4.00                                                            79        27 percent


   FUL amount for 30-day supply between $4.01 and $8.00                                                                83        29 percent


   FUL amount for 30-day supply between $8.01 and $20.00                                                               94        32 percent


   FUL amount for 30-day supply between $20.01 and $100.00                                                             29        10 percent


   FUL amount for 30-day supply more than $100.00                                                                      6          2 percent


       Total Drugs                                                                                                   291        100 percent


       Aggregate Retail Price for 30-Day Supply                                                                         $7.87
 * $4.00 retail prices represent a total cost. The FUL amount only represents the ingredient cost for the drug. Pharmacies without discount
 generic programs usually would also receive a dispensing fee in addition to reimbursement for the ingredient cost portion.

 Source: OIG analysis of CMS FUL Data and PDE Data.



                                                                       The FUL amounts do not always
Despite the fact that States often pay less than
                                                                       represent the actual prices paid by
the FUL amount for multiple-source drugs, the                          Medicaid, because State maximum
     current calculation method is still costing                       allowable cost programs as well as
  Medicaid hundreds of millions of dollars per                         usual and customary charge
                                            year                       provisions may further lower
                                                                       payments for multiple-source drugs.
                                 In other words, the percentage differences described in the previous
                                 finding, while accurate in relation to the FUL amounts, may overstate
                                 actual differences between Medicaid payments and these other pricing
                                 points in practice. However, even allowing for this fact, average
                                 Medicaid payment amounts still exceeded the other pricing points we
                                 reviewed by a substantial margin, potentially costing the program
                                 hundreds of millions of dollars per year.



    OEI-03-08-00490              COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS    TO   OTHER PRICING POINTS                          19
F I   N D I    N G   S


                     If Medicaid had paid for 50 FUL drugs based on the average pharmacy
                     acquisition cost, the program would have reduced expenditures by
                     $105 million in a single quarter
                     Even considering payment reductions under maximum allowable cost
                     programs or usual and customary charge provisions, States still paid, in
                     the aggregate, an estimated 2.7 times more than the average pharmacy
                     acquisition cost for the 50 high-expenditure drugs under review
                     (compared to 4.32 times had States actually paid at the FUL amounts).
                     Furthermore, this does not take into account that pharmacies usually
                     receive a dispensing fee each time a drug is dispensed, meaning that the
                     gap between Medicaid payment and pharmacy cost is wider than
                     described.
                     Medicaid would have spent an estimated $105 million less in the fourth
                     quarter of 2007 on the 50 drugs under review had States paid at the
                     average pharmacy acquisition cost. 40 Assuming pricing and utilization
                     was constant across all quarters of 2007, Medicaid expenditures for
                     these 50 drugs could have been reduced by more than $400 million over
                     the entire year (see Table 6).
                     If Medicaid had paid for 572 FUL drugs at the average Part D payment
                     amount, the program would have reduced expenditures by $138 million in a
                     single quarter
                     Even considering payment reductions under maximum allowable cost
                     programs or usual and customary charge provisions, States still paid, in
                     the aggregate, an estimated 84 percent more than Part D for the
                     572 drugs under review (compared to 191 percent more had States
                     actually paid at the FUL amounts). 41 Medicaid would have spent an
                     estimated $138 million less in the fourth quarter of 2007 on the FUL
                     drugs had States paid the same as Part D. Assuming pricing and
                     utilization was constant across all quarters of 2007, Medicaid
                     expenditures for these 572 drugs could have been reduced by more than
                     $500 million over the entire year.




                         40 If States chose to raise dispensing fees to offset lower ingredient cost payments, these
                     savings would be reduced.
                         41 This does not take dispensing fees into account. Given that Medicaid tends to pay
                     higher dispensing fees than Part D, the difference in reimbursement between Medicaid and
                     Medicare Part D is likely greater than the estimated 84 percent.


 OEI-03-08-00490     COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS           20
        F I      N D I         N G       S


                                        If Medicaid had paid all pharmacies for 291 FUL drugs at the price available
                                        through retail discount generic programs, the program would have reduced
                                        expenditures by $87 million in a single quarter
                                        States paid, in the aggregate, an estimated two times more than retail
                                        prices for the 291 drugs included in discount generic programs. The
                                        average Medicaid payment amount for a 30-day supply of these drugs
                                        was $8.01, including dispensing fee. Each drug could be purchased for a
                                        total cost of $4.00 at one or more of the retail chain pharmacies included
                                        in our review.

                                        Medicaid would have spent an estimated $87 million less in the fourth
                                        quarter of 2007 on these drugs had States paid all pharmacies at the
                                        $4.00/30-day price. Assuming pricing and utilization was constant
                                        across all quarters of 2007, Medicaid expenditures for these 291 FUL
                                        drugs could have been reduced by almost $350 million over the entire
                                        year.

                                        It is important to note that if a Medicaid beneficiary obtained any of
                                        these 291 drugs from a pharmacy with a discount generic program,
                                        usual and customary charge provisions would generally apply. In other
                                        words, Medicaid should (and may) have reimbursed the pharmacy no
                                        more than a total of $4.00 total for the drug, with no additional
                                        dispensing fee applied.



 Table 6: Potential Costs to Medicaid of Current FUL Methodology in the Fourth
 Quarter of 2007

                                                                                                                                    Retail Discount
                                                                     Average Pharmacy                  Average Part D              Generic Program
                                                                     Acquisition Costs*             Payment Amounts*                          Prices
 Number of drugs                                                                        50                            572                         291

 Actual fourth quarter 2007 Medicaid payments
 under pre-DRA method                                                      $167.7 million                  $301.3 million              $174.5 million

 Estimated fourth quarter 2007 Medicaid
 payments under other pricing point                                         $62.8 million                  $163.7 million                $87.1 million

 Difference (estimated quarterly savings)                                  $104.9 million                  $137.6 million                $87.4 million

*Figures for the pharmacy and Part D comparisons are based only on the ingredient cost portion of total Medicaid payments, and do not reflect
dispensing fees.

Source: OIG analysis of CMS FUL Data and Utilization Data, Distributor Sales Data, PDE Data, and Retail Chain Pricing.




           OEI-03-08-00490              COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS    TO   OTHER PRICING POINTS                      21
F I    N D I   N G   S



      In the aggregate, AMP-based FUL amounts were              In the fourth quarter of
                                                                2007, the FUL amounts
         much closer to other pricing points; however,
                                                                calculated under the
           for some drugs, these FUL amounts may be
                                                                DRA-mandated method (i.e.,
                              below acquisition costs           250 percent of the lowest
                     AMP) were, in the aggregate, 66 percent below the FUL amounts based
                     on published prices, and 47 percent below the average Medicaid
                     payment amounts. 42 Taken as a whole, these AMP-based FUL amounts
                     were much closer to pharmacy acquisition costs, Part D payment
                     amounts, and retail generic program prices. However, for a number of
                     individual drugs, the DRA-based changes to the calculation
                     methodology led to FUL amounts that were substantially below these
                     other pricing points.
                     In the aggregate, AMP-based FUL amounts were 50 percent higher than
                     average pharmacy acquisition costs in the fourth quarter of 2007; however,
                     the FUL amounts for a number of drugs were less than acquisition costs
                     For the 50 FUL drugs with the highest total Medicaid expenditures,
                     fourth-quarter 2007 AMP-based FUL amounts were 50 percent higher,
                     in the aggregate, than average pharmacy acquisition costs. This figure
                     does not take into account that in addition to being reimbursed by
                     Medicaid for the cost of the drug itself (i.e., the FUL amount, the
                     maximum allowable cost), pharmacies usually receive a dispensing fee
                     from Medicaid each time a prescription is filled.

                     Among individual products, fourth-quarter 2007 AMP-based FUL
                     amounts were less than average pharmacy acquisition costs for 26 of the
                     50 drugs under review. In eight cases, the FUL amount was less than
                     half of the average acquisition cost, meaning pharmacies could pay
                     much more than the new payment limit when acquiring these drugs.

                     In contrast, 24 of the 50 drugs had AMP-based FUL amounts that
                     exceeded average acquisition costs, including 6 of the 7 FUL drugs with
                     the highest Medicaid expenditures in 2007. Eight drugs had
                     AMP-based FUL amounts that were still more than double their
                     average acquisition costs. Table 7 provides a summary of the difference
                     between AMP-based FUL amounts and average pharmacy acquisition
                     costs in the fourth quarter of 2007 for the drugs under review.


                         42 Taking into account what Medicaid actually paid for the drugs, aggregate spending

                     would have been $140 million less under the AMP-based calculation method that quarter.


 OEI-03-08-00490     COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS         22
F I     N D I        N G      S


  Table 7: Comparison of AMP-Based FUL Amounts to Average Pharmacy
  Acquisition Costs in the Fourth Quarter of 2007

                                                                                                           Number of    Percentage of
  Percentage Difference                                                                                       Drugs            Drugs

  FUL amount more than 80 percent below average pharmacy acquisition cost                                           2       4 percent

  FUL amount between 50.01 and 80 percent below average pharmacy acquisition cost                                   6     12 percent

  FUL amount between 20.01 and 50 percent below average pharmacy acquisition cost                                  11     22 percent

  FUL amount between 0.01 and 20 percent below average pharmacy acquisition cost                                    7     14 percent

  FUL amount equal to average pharmacy acquisition cost                                                             0       0 percent

  FUL amount between 0.01 and 20 percent above average pharmacy acquisition cost                                    2       4 percent

  FUL amount between 20.01 and 50 percent above average pharmacy acquisition cost                                   6     12 percent

  FUL amount between 50.01 and 100 percent above average pharmacy acquisition cost                                  8     16 percent

  FUL amount more than 100 percent above average pharmacy acquisition cost                                          8     16 percent

      Total Drugs                                                                                                  50    100 percent
Source: OIG analysis of CMS FUL Data and Distributor Sales Data.




                              We also examined the lowest average costs reported by any wholesale
                              distributor for any single version (i.e., national drug code) of a FUL
                              drug. In the aggregate, AMP-based FUL amounts were more than
                              double the lowest acquisition costs. For 38 of the 50 drugs, the
                              AMP-based FUL amounts were higher than the lowest costs reported by
                              wholesale distributors. In other words, pharmacies may have been able
                              to purchase these versions from a particular distributor for less than the
                              AMP-based FUL amount.
                              In the aggregate, AMP-based FUL amounts were 2 percent below average
                              Part D payment amounts in the fourth quarter of 2007
                              For the 542 drugs included in this portion of the analysis, fourth-
                              quarter 2007 AMP-based FUL amounts were 2 percent below average
                              Part D payment amounts, in the aggregate. This figure does not take
                              into account that both Medicaid and Part D usually pay a dispensing fee
                              in addition to the ingredient cost payment. Given that Medicaid tends
                              to pay higher dispensing fees than Part D, State payments to
                              pharmacies under the AMP-based FULs may actually exceed Part D
                              payments (in the aggregate) once dispensing fees are considered.

  OEI-03-08-00490             COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS                 23
        F I      N D I          N G       S


                                         Among individual products, the AMP-based FUL amount was less than
                                         the average Part D payment amount for 337 of 542 drugs (62 percent)
                                         (see Table 8). The FUL amount was less than half of the Part D
                                         payment in 161 of these cases. In contrast, the AMP-based FUL
                                         amount was more than double the Part D payment for 50 of the
                                         542 drugs.

   Table 8: Comparison of AMP-Based FUL Amounts to Average Part D Payment
   Amounts in the Fourth Quarter of 2007

                                                                                                                    Number of       Percentage of
  Percentage Difference                                                                                                Drugs               Drugs

  FUL amount more than 80 percent below average Part D payment amount                                                          34       6 percent

  FUL amount between 50.01 and 80 percent below average Part D payment amount                                              127        23 percent

  FUL amount between 20.01 and 50 percent below average Part D payment amount                                              103        19 percent

  FUL amount between .01 and 20 percent below average Part D payment amount                                                    73     13 percent

  FUL amount equal to average Part D payment amount                                                                            0        0 percent

  FUL amount between 0.01 and 20 percent above average Part D payment amount                                                   57     11 percent

  FUL amount between 20.01 and 50 percent above average Part D payment amount                                                  51       9 percent

  FUL amount between 50.01 and 100 percent above average Part D payment amount                                                 47       9 percent

  FUL amount more than 100 percent above average Part D payment amount                                                         50       9 percent

      Total Drugs                                                                                                          542      100 percent*
* Individual totals displayed in table do not add up to 100 percent because of rounding.

Source: OIG analysis of CMS FUL Data and PDE Data.


                                         In the aggregate, AMP-based FUL amounts plus a dispensing fee would still
                                         exceed retail prices available through discount generic programs
                                         Approximately half (279) of the drugs with an AMP-based FUL in the
                                         fourth quarter of 2007 were also included in at least one of the discount
                                         generic programs under review. Under the discount programs, each of
                                         these drugs had a retail price of $4.00 for a 30-day supply (total cost,
                                         with no additional dispensing fees). The AMP-based FUL amounts for a
                                         30-day supply of these same drugs averaged $2.20, before any




            OEI-03-08-00490              COMPARISON    OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS                   24
F I   N D I    N G   S


                     dispensing fees were applied. 43 However, given that only one State had
                     a dispensing fee that was less than $2.00 per prescription (New
                     Hampshire was $1.75), the average total Medicaid payment for these
                     drugs, including the dispensing fee, would still exceed the retail prices
                     under the discount generic programs.

                     As previously stated, if a Medicaid beneficiary obtained any of these
                     279 drugs from a pharmacy with a discount generic program, usual and
                     customary charge provisions would generally apply. In other words,
                     Medicaid should (and may) have reimbursed the pharmacy no more
                     than a total of $4.00 total for the drug, with no additional dispensing fee
                     applied.




                         43 As previously stated, State dispensing fees to retail pharmacies for generic drugs
                     ranged from $1.75 to $7.25 per prescription, with fees in 30 States falling between $3.50
                     and $5.00.


 OEI-03-08-00490     COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS          25
   R E C O M M E N D A T I O N

                  Based in part on OIG work that consistently found that the published
                  prices used to set FUL amounts often greatly exceed prices available in
                  the marketplace, the DRA included provisions to base FUL amounts on
                  the AMP, rather than the prices published in national compendia.
                  However, an injunction from a Federal judge, as well as provisions in
                  the MIPPA, delayed the implementation of the AMP-based FULs.
                  Therefore, CMS is still basing Medicaid FUL amounts on published
                  prices until at least October 1, 2009.

                  The findings of this report demonstrate that the current method for
                  setting the FUL amounts continues to result in substantially inflated
                  Medicaid payments for many multiple-source drugs. The FUL amounts
                  for individual drugs are frequently double (and often more than five
                  times) the acquisition costs for pharmacies, the payment amounts under
                  Part D, and even the prices charged by retail chain pharmacies. As a
                  result, Medicaid could be overpaying by hundreds of millions of dollars
                  per year for these drugs.

                  Our findings show that AMP-based FULs calculated under the DRA
                  prescribed methodology significantly lessen the gap between the FUL
                  amounts and the other prices we examined. In the aggregate, the
                  DRA-based FULs seem to cover acquisition costs, and are very similar
                  to overall Part D reimbursement. Considering that Medicaid’s
                  dispensing fees for multiple-source drugs tend to be higher than those
                  paid by Part D plans, it is likely that pharmacies will continue to
                  receive higher aggregate payments under Medicaid if and when the
                  AMP-based FUL methodology takes effect.

                  Despite the aggregate numbers, we have concerns that for a number of
                  individual drugs the AMP-based FUL amounts were substantially below
                  average acquisition costs and Part D payment amounts. If this is the
                  case, pharmacies may face difficulties in providing certain drugs to
                  Medicaid beneficiaries. However, if and when CMS is permitted to
                  publicly disclose AMP data, the resulting transparency should help
                  ensure that the AMP-based FUL amounts are more accurate reflections
                  of actual market prices. Furthermore, as CMS stated in a response to a
                  previous OIG report, pharmacies will seek out the lowest-cost versions
                  of the FUL drugs, meaning that looking at how “average” costs compare
                  may not always reflect market realities. To that end, our analysis
                  showed that 38 of the 50 drugs we reviewed were available from at least
                  one source at a price below the AMP-based FUL amount.

OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   26
R E C O M M E N D A T I O N


                   Notwithstanding these concerns, the inflated payments resulting from
                   the pre-DRA methodology that we observed in this review once again
                   illustrate the flaws in the current FUL calculation. We also understand
                   that without a legislative change and the lifting of the injunction, CMS’s
                   options are limited at this time. However, it is critical that Medicaid set
                   payment rates that are fair and appropriate to both the government and
                   providers. Therefore, we recommend that:
                   CMS should continue to work with Congress to identify strategies that
                   would lower inflated Medicaid payments for multiple-source drugs.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation. CMS also stated that our
                   findings support the agency’s belief that AMP-based FULs more
                   accurately reflect acquisition costs and prices used in other programs.
                   However, the agency expressed concerns with certain aspects of our
                   methodology.

                   Specifically, CMS stated that actual pharmacy acquisition costs are
                   likely to be lower than the estimates used in our report because two of
                   the four responding distributors failed to provide data on price
                   concessions. CMS believes that if all distributors had reported these
                   price concessions, we would have found that more drugs had been
                   obtainable at the AMP-based FUL amounts. CMS also noted that our
                   findings understate Medicaid payment rates because we did not include
                   dispensing fees that are paid when Medicaid prescriptions are filled.

                   Despite these issues, CMS recognized that for certain multiple-source
                   drugs, acquisition costs may exceed the AMP-based FULs. However,
                   the agency noted that FULs are required to be met only in the
                   aggregate and that States have the authority to pay more than the FUL
                   amount for certain drugs as long as total payments remain below the
                   aggregate limit. In addition, CMS also stated that publicly disclosing
                   AMP data will bring transparency to prices and assist pharmacies in
                   purchasing drugs at less than the FUL amounts.

                   OIG acknowledged in the “Limitations” section on page 14 that two
                   distributors did not provide data on price concessions, and therefore
                   pharmacies’ bottom-line costs for some drugs may be lower than the
                   estimates used in the report. We agree that had these two distributors

 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   27
R E C O M M E N D A T I O N


                   included information on price concessions, our estimate of the number of
                   drugs available at prices below the AMP-based FUL amounts may have
                   increased. However, based on our data, this limitation does not
                   fundamentally change the underlying issue surrounding the availability
                   of individual drugs. As Table 7 on page 23 shows, the AMP-based FUL
                   amount was less than the average acquisition cost for 26 of the selected
                   drugs; in 19 of these cases, the difference between the two amounts was
                   greater than 20 percent. In other words, for many of these drugs, the
                   AMP-based FUL amounts would likely have still been below average
                   acquisition costs even if all distributors had reported price concessions.

                   In addition, except for one circumstance involving prices charged under
                   discount retail programs, OIG did not consider dispensing fees in its
                   pricing comparison. Medicaid FUL amounts are meant to reimburse
                   pharmacies for the acquisition costs of the drugs themselves, while
                   dispensing fees are separate payments that cover the additional costs of
                   dispensing drugs. Because this study did not focus on these additional
                   costs, it would not have been appropriate to include dispensing fees in
                   most pieces of our analysis.

                   Finally, we agree that because FULs apply only in the aggregate, States
                   have the flexibility to raise payment amounts for individual drugs (and
                   lower payment amounts for others) if and when FUL amounts appear to
                   be too low. However, in practice, it may prove challenging for States to
                   try to determine the adequacy of individual FUL amounts for hundreds
                   of drugs and make appropriate adjustments. Therefore, it is important
                   to balance the goal of lower aggregate payment levels with the need to
                   ensure that FUL amounts cover acquisition costs for as many drugs as
                   possible.

                   For the full text of CMS’s comments, see Appendix B.




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   28
      A P P E N D I X                          ~        A



Fifty Federal Upper Limit Drugs With Highest Total Medicaid Expenditures in
2007
Drug                                                                                                   Strength         Form
ACETAMINOPHEN/CODEINE                                                                            300 MG-30 MG            TAB
ACETAMINOPHEN/HYDROCODONE BITARTRATE                                                             500 MG-10 MG            TAB
ACETAMINOPHEN/HYDROCODONE BITARTRATE                                                              500 MG-5 MG            TAB
ACETAMINOPHEN/HYDROCODONE BITARTRATE                                                            500 MG-7.5 MG            TAB
ALBUTEROL SULFATE                                                                                        0.083%          SOL
ALPRAZOLAM                                                                                               0.5 MG          TAB
ALPRAZOLAM                                                                                                 1 MG          TAB
AMOXICILLIN                                                                                             500 MG           CAP
AMOXICILLIN                                                                                        250 MG/5 ML           PDR
AMOXICILLIN/CLAVULANATE POTASSIUM                                                  400 MG/5 ML-57 MG/5 ML                PDR
BACLOFEN                                                                                                  10 MG          TAB
BETAMETHASONE/CLOTRIMAZOLE                                                                            0.05%-1%           CRE
CEFPROZIL                                                                                          250 MG/5 ML           PDR
CEPHALEXIN                                                                                              500 MG           CAP
CLONAZEPAM                                                                                               0.5 MG          TAB
CLONAZEPAM                                                                                                 1 MG          TAB
CLONIDINE HCL                                                                                            0.1 MG          TAB
CYCLOBENZAPRINE HCL                                                                                       10 MG          TAB
FLUOXETINE HCL                                                                                            20 MG          CAP
FLUOXETINE HCL                                                                                            40 MG          CAP
FOLIC ACID                                                                                                 1 MG          TAB
GABAPENTIN                                                                                              300 MG           CAP
GABAPENTIN                                                                                              400 MG           CAP
GABAPENTIN                                                                                              600 MG           TAB
GABAPENTIN                                                                                              800 MG           TAB
GLYBURIDE/METFORMIN HCL                                                                           5 MG-500 MG            TAB
HYDROXYZINE HCL                                                                                           25 MG          TAB
IBUPROFEN                                                                                               800 MG           TAB
LISINOPRIL                                                                                                20 MG          TAB
LORAZEPAM                                                                                                0.5 MG          TAB
LORAZEPAM                                                                                                  1 MG          TAB
LORAZEPAM                                                                                                  2 MG          TAB
METFORMIN                                                                                              1000 MG           TAB
METFORMIN                                                                                               500 MG           TAB
MUPIROCIN                                                                                                      2%        OIN
OMEPRAZOLE                                                                                                20 MG          ECC
OXYCODONE HCL                                                                                             20 MG          TER
OXYCODONE HCL                                                                                             40 MG          TER
OXYCODONE HCL                                                                                             80 MG          TER
OXYCODONE/ACETAMINOPHEN                                                                           325 MG-5 MG            TAB
OXYCODONE/ACETAMINOPHEN                                                                          650 MG-10 MG            TAB
                                                                                                  Table Continued on Next Page


       OEI-03-08-00490    COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS                     29
A P P         E N D I X ~ A




 Fifty Federal Upper Limit Drugs With Highest Total Medicaid Expenditures in
 2007 (continued)
 PAROXETINE                                                                                                            20 MG   TAB
 PAROXETINE                                                                                                            40 MG   TAB
 POTASSIUM CHLORIDE                                                                                                  20 MEQ    TER
 PROPOXYPHENE NAPSYLATE & ACETAMINOPHEN                                                                      650 MG-100 MG     TAB
 RANITIDINE HCL                                                                                                       150 MG   TAB
 RIBAVIRIN                                                                                                            200 MG   CAP
 SULFAMETHOXAZOLE/TRIMETHOPRIM                                                                               800 MG-160 MG     TAB
 TRAMADOL HCL                                                                                                          50 MG   TAB
 ZONISAMIDE                                                                                                           100 MG   CAP
Source: Office of Inspector General Analysis of Medicaid Utilization Data.




         OEI-03-08-00490              COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS             30
         A P PEN 0                                x                   B



     Agency Comments




                       DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Cente,s'fo, Medica,. & Medicaid Service.


                                                                                                  Administrator
                                                                                                  W.'hlnglo~,DC ~201

                                                                                                             :;',   t;S    ,p
                                                                                                                    \::   ,il
                                                                                                                    ,­
                                          JUL     IHIIB
                  DATE:

                  TO: 	          Daniel R. Levlnsdn
                                 Inspector General

                  FROM~          ffilfrlene Frl,z7Afll /S/
                                 Acting Administrator

                  SUBJECT:       Office ofInspector General (010) Draft Report: "A Comparison of Medicaid
                                 Federal Upper Limit Amounts to' Acquisition Costs, Medicare Payment Aniounts,
                                 and Retail Prices" (OEI.03-08-00490)


                  Thank you for the opportunity to review and comment on the subject draft report. In this draft
                  report, thc OIG-"(1) Detemlines how the current pre-Deficit Reduction Act of2005 (ORA, P.L.
                  109-171) Federal upper limit (PUL) amounts compare to pharmacy acquisition costs, Medicare
                  Part D pllymcnt amounts; and retail priCeS Under dj§count.gcneric programs; (2) Estimates the
                  financial impact on the Medicaid program df continuing to calculate FULam6unts using the
                  current method; and (3) Deterntines how FUL Ilmounts based on,avetage manufacturer prices
                  (AMPs) calculated under the method required by the DRA compare to the pricing points under
                  review.

                  TheDRA required FUL amounts for multiple source drugs to be based on 250 percent of the
                  loweslreported AMP in a FUL group. However, a preliminary injunction issued by the U.S.
                  District Court for the District of Columbia and a moratorium in the' Medicare Improvements for
                  Patients and Providers Act ,0£2008 (P.L. 110-275) prevented the Centers for Medicare &
                  Mediaaid'Services (eMS) from implementing the AMP-based FUL methodology until at Ie8$!
                  October 1, 2009. As a resu.It, CMS is Qurrently calcul~ting FUL amounts under the pre-ORA
                  methodology.

                  GIG Findings

               Using rourth,quarter 2007 MedicaiddtugutiIization data,. the O1G reviewe~ the top 50 drugs 

             , with the highesHotal Medicaid,expemfitures. The OIG found the following for the current, pre-

               DRAFULs.                                                                                 '


                      • 	 In the aggregate, the .FUt amounts calculated under the current methodology were 4.32
                          times more thf!ll average pharmacy acquisition costs in the, fourth quarter of 2007. For
                          allnost haIf ofthe drugs und.cr rllView, the FULarnounts calculllted !Ii1d'er the current
                          metho;dology were, at le,fjstJive times greater than the average pharmacy acq\.lisition costs
                          in the foUrth quarter of2007.




OEI,03-08,00490           COMPARISON OF MEDICAID FEDERAL UPPER LIMIT AMOUNTS TO OTHER PRICING POINTS                                          31
A P P    E N D I X        ~            B




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   32
A P P    E N D I X        ~            B




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   33
A P P    E N D I X        ~            B




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   34
A P P
    A EC N KD NI XO W~ L AE D G M E N T S

                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and David E. Tawes, Director of the Medicare and
                   Medicaid Prescription Drug Unit.

                   Eric M. Biersmith served as lead analyst for this study. Other central
                   office staff who contributed include Eddie Baker, Jr., and Scott Manley.




 OEI-03-08-00490   COMPARISON   OF   MEDICAID FEDERAL UPPER LIMIT AMOUNTS   TO   OTHER PRICING POINTS   35
